         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Needs to Strengthen
       Financial Database Security
       Oversight and Monitor Compliance

       Report No. 2007-P-00017

       March 29, 2007
Report Contributors:	             Rudolph M. Brevard
                                  Chuck Dade
                                  Corey Costango
                                  Sejal Shah




Abbreviations

BAS          Budget Automation System
CSIRC        Computer Security Incident Response Capability
DBMS         Database Management System
EPA          U.S. Environmental Protection Agency
FDW          Financial Data Warehouse
IFMS         Integrated Financial Management System
ISO          Information Security Officer
IRMS         Integrated Resource Management System
NIST         National Institute for Standards and Technology
OCFO         Office of the Chief Financial Officer
OEI          Office of Environmental Information
OIG          Office of Inspector General
OPPIN        Office of Pesticide Programs Information Network
ORD          Office of Research and Development
OTOP         Office of Technology Operations and Planning
SLATE        Strategic Leasing and Asset Tracking Enterprise
                                                                                                       2007-P-00017

                       U.S. Environmental Protection Agency                                           March 29, 2007

                       Office of Inspector General


                       At a Glance

                                                                       Catalyst for Improving the Environment


Why We Did This Review           EPA Needs to Strengthen Financial Database Security
                                 Oversight and Monitor Compliance
We sought to determine
whether the U.S.
                                  What We Found
Environmental Protection
Agency (EPA) (1)                 We discovered weaknesses in how EPA offices (1) monitor databases for known
implemented and maintained       security vulnerabilities, (2) communicate the status of critical system patches, and
database hardware and            (3) monitor the use of and access to database administrator accounts and
software in accordance with      privileges. These weaknesses exist because EPA had not implemented security
EPA policy requirements; and     processes to (1) actively monitor systems that share data with IFMS, (2) share and
(2) secured critical financial   collect information on the implementation of critical system patches, and
information by restricting       (3) effectively manage access controls. Without these processes, the integrity of
access to high-level database    critical data in key Office of the Chief Financial Officer (OCFO) systems could be
functions, such as database      undermined. As a result, OCFO cannot ensure that the integrity of the data it
administrator authorities.       provides to senior Agency officials is adequately protected.
Background                       We also identified specific technical weaknesses in three of the financial databases
                                 that share data with IFMS.
EPA’s core financial
application, the Integrated
                                  What We Recommend
Financial Management System
(IFMS), shares data with         We recommend that OCFO, the Office of Environmental Information (OEI), and
many financial management        the Office of Research and Development address areas where EPA could improve.
system databases. An             Specifically, we recommend that:
inadequately designed and
implemented security control
                                     •	 OCFO update the Memorandum of Understanding process to include
could be more easily
                                        formal security standards that require the program/regional offices to
breached, which could
                                        actively monitor the security status of systems that share data with IFMS.
compromise the integrity of
the data IFMS uses for               •	 OEI strengthen, formalize, and evaluate the effectiveness of the followup
financial reporting and                 procedures for obtaining complete responses from program and regional
decisionmaking.                         offices regarding high-level critical system patch alerts, as well as share
                                        status reports on the implementation of critical system patches.
For further information,
contact our Office of                •	 The system owners for each reviewed application correct all identified
Congressional and Public                system weaknesses, and develop a Plan of Action and Milestones in the
Liaison at (202) 566-2391.              Agency’s security weakness tracking system for all noted deficiencies.
To view the full report,
click on the following link:     The Agency agreed with all of our recommendations.
www.epa.gov/oig/reports/2007/
20070329-2007-P-00017.pdf        Due to the sensitive nature of the report’s technical findings, we removed
                                 Appendices A, C, and D from the public version of the report.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 29, 2007

MEMORANDUM

SUBJECT:	 EPA Needs to Strengthen Financial Database Security Oversight and
          Monitor Compliance
          Report No. 2007-P-00017


FROM:          Patricia H. Hill
               Assistant Inspector General for Mission Systems

TO:            Lyons Gray
               Chief Financial Officer

               Molly A. O’Neill 

               Assistant Administrator for Environmental Information 


               George M. Gray, Ph.D. 

               Assistant Administrator for Research and Development 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $356,118.

Action Required

In accordance with EPA Manual 2750, the Office of the Chief Financial Officer is required to
provide a written response to this report within 90 calendar days. You should include a
corrective action plan for agreed upon actions, including milestone dates.
The Office of Environmental Information and Office of Research and Development do not have
to provide a response to this report. The offices’ response to the draft report contained an
adequate corrective action plan with milestone dates to address the recommendations.
Accordingly, we are closing this report on issuance.

Due to the sensitive nature of the technical findings, we have removed Appendices A, C, and D
from the report version made available to the public. The public copy of this report will be
available at http://www.epa.gov/oig. Additional copies of the full report can be obtained by
contacting our Office of Congressional and Public Liaison at (202) 566-2391.

If you or your staff has any questions, please contact me at 202-566-0894 or
hill.patricia@epa.gov; or Rudolph M. Brevard, Director, Information Resources Management
Assessments, at (202) 566-0893 or brevard.rudy@epa.gov.
                 EPA Needs to Strengthen Financial Database Security Oversight
                                   and Monitor Compliance




                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1     


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Scope and Methodology.................................................................................                2         


 2	   Effective Oversight and Continuous Monitoring Needed to
      Improve Financial Database Security..................................................................                         4

              Consistent Practices Needed to Identify Weaknesses .................................                                 4

              Improvements Needed in Reporting Status of Critical System Patches ........                                          5

              Database Administrator Accounts and Privileges Not Managed Properly......                                            6

              Recommendations .........................................................................................            7          

              Agency Response and OIG Comments .........................................................                           8


 Status of Recommendations and Potential Monetary Benefits ................................                                        10 




Appendices
 A    High-Level Summary of Specific Technical Weaknesses by
      EPA Program Office and System.........................................................................                       11

 B    Non-Sensitive Portion of OCFO’s and OEI’s Combined Response
      to Draft Audit Report.............................................................................................           12

 C    OCFO’s Response to Recommendations Associated with
      Sensitive Technical Control Weaknesses Disclosed in Appendix A ...............                                               16

 D    ORD’s Response to Recommendations Associated with
      Sensitive Technical Control Weaknesses Disclosed in Appendix A ...............                                               17

 E    Distribution ............................................................................................................    18
                                Chapter 1
                                 Introduction

Purpose
          We completed this audit to determine whether the U.S. Environmental Protection
          Agency (EPA) (1) implemented and maintained database hardware and software
          in accordance with EPA policy requirements; and (2) secured critical financial
          information by restricting access to high-level database functions, such as
          database administrator authorities.

Background
          The Integrated Financial Management System (IFMS) is EPA’s core financial
          management accounting system. IFMS (1) supports the standard general ledger,
          (2) is the source of data for preparing financial statements and budgetary reports,
          and (3) supports program offices in managing and controlling funds. IFMS
          depends heavily upon data processed by many other systems in order to provide
          senior Agency officials with timely and accurate information. Although the
          Office of the Chief Financial Officer (OCFO) is the IFMS system owner, many of
          the financial management systems that share data with IFMS are managed by
          other program offices. Therefore, OCFO must coordinate the implementation of
          security controls between offices to protect the integrity of shared data.

          OCFO must implement a security program that is consistent with EPA’s current
          security philosophy. Currently, EPA distributes the implementation and
          management of information security to multiple organizations. Under the current
          EPA security structure, the Office of Environmental Information (OEI) is
          responsible for:

             •	 Developing and defining the Agency’s information security program in
                accordance with all applicable Federal laws and regulations;

             •	 Providing guidance on selecting and implementing safeguards; and

             •	 Establishing the minimum information security control environment
                required to protect both its automated data processing resources and its
                information from theft, damage, and unauthorized use.

          EPA regional and program offices are responsible for:

             •	 Establishing an organization-wide information security program consistent
                with Agency policy, and


                                           1

            •	   Protecting information and applications by implementing (1) appropriate
                 safeguards into all new organizational information systems, and (2) major
                 modifications to existing systems.

Scope and Methodology
         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We conducted this audit
         from January through July 2006 at the National Computer Center in Research
         Triangle Park, North Carolina, and EPA Headquarters in Washington, DC. We
         reviewed EPA database security policies and procedures. We tested configuration
         settings for both the database and operating system software. We interviewed
         EPA employees and contractors responsible for database maintenance and
         security.

         We selected a judgmental sample of five major financial management database
         systems that share data with IFMS. We reviewed the following applications
         during preliminary research:

                   Application            Acronym                 Program Office
         Budget Automation System              BAS   Office of the Chief Financial Officer
         Financial Data Warehouse           FDW      Office of the Chief Financial Officer
         Integrated Resource
                                            IRMS     Office of Research and Development
         Management System
         Office of Pesticide Programs                Office of Prevention, Pesticides, and
                                           OPPIN
         Information Network                         Toxic Substances
         Strategic Leasing and Asset                 Office of Administration and Resources
                                           SLATE
         Tracking Enterprise                         Management

         We did not review PeoplePlus, EPA’s combined human resources and payroll
         application, because the OIG conducted a security review of the application
         within the past 12 months.

         During preliminary research, we (1) documented management controls
         surrounding database security, and (2) tested the systems’ configuration settings.

            •	 Management Controls – We surveyed the respective system owners to
               determine whether management issued formal policies and procedures for
               the following key areas: database system configuration, database
               administrator duties, and system maintenance management. We collected
               and reviewed the responses, and conducted followup interviews with EPA
               personnel and contractors. For each system, we reviewed the results of
               management’s latest security control tests.




                                          2

   •	 Systems’ Configuration Settings – We conducted vulnerability testing of
       the selected systems’ databases and operating systems to identify common
       security weaknesses. We used two vulnerability-testing tools recognized
       by the National Institute for Standards and Technology (NIST). These
       tools identify potential vulnerabilities and validate that the operating
       systems and major applications have the latest software versions. We used
       one tool to test application servers’ operating systems for vulnerabilities.
       We used the other tool to test the database software for vulnerabilities and
       key database configuration settings. We provided our scanning results to
       the respective program offices to evaluate the validity of the identified
       high vulnerabilities. We were unable to conduct vulnerability testing of
       OPPIN because the program office was relocating the system at the time
       of our audit. As such, we eliminated OPPIN from our sample.

During field work, we selected three of the five database systems for detailed
review. We based our selection on (1) whether an office had documented its
database security management control structure, and (2) the total number of
“high-risk” vulnerabilities discovered during preliminary testing. We selected
BAS, FDW, and IRMS for further review.

We have not performed prior audits related to database security controls for these
EPA systems. As such, there were no recommendations to follow up on during
this audit.




                                 3

                                Chapter 2
    Effective Oversight and Continuous Monitoring
    Needed to Improve Financial Database Security

          We discovered weaknesses in how EPA offices (1) monitor financial databases
          for known security vulnerabilities, (2) share information regarding the
          implementation of critical system updates, and (3) monitor the use of and access
          to database administrator accounts and privileges. EPA policies require offices to
          establish an organization-wide information security program consistent with
          Agency policy. This includes establishing processes for actively monitoring
          systems, promptly implementing systems updates, and effectively managing
          access to network resources and systems. OCFO’s policy requires system owners
          to enter into a Memorandum of Understanding (MOU) when their system
          interfaces with IFMS. However, this current security oversight process does not
          incorporate methods that actively monitor the security status of these systems
          once the MOU is signed. In addition, this policy does not currently apply to
          systems using means other than an electronic interface to share data with IFMS.
          As a result, OCFO has limited assurance that the security controls of critical
          systems adequately protect the accuracy of financial data used for decisionmaking
          and financial reporting. OCFO needs a more collaborative framework and
          stronger oversight processes to ensure that systems, which share financial data
          with IFMS, comply with prescribed Agency security practices.

Consistent Practices Needed to Identify Weaknesses
          Offices lack consistent processes to conduct vulnerability testing of systems to
          identify and correct commonly known security weaknesses. NIST states that it is
          imperative that organizations routinely test systems for vulnerabilities and
          misconfigurations to reduce the likelihood of system compromise. EPA policy
          2195.1A4, Agency’s Network Security Policy, requires EPA offices to monitor,
          test, evaluate, and verify their systems to ensure adequate security in accordance
          with information sensitivity and other Federal and Agency requirements. Based
          on interviews with the system owners, we determined that the frequency of
          vulnerability testing was inconsistent among offices. The vulnerability testing
          schedules ranged from monthly to only performing the testing in conjunction with
          completing the major risk assessment, which usually takes place every 3 years.
          During the time between risk assessments, OCFO does not utilize processes to
          check the security status of systems that share data with IFMS. As a result,
          OCFO relies on the implementation of security controls that have become, over
          time, ineffective due to system changes and emerging system weaknesses.

          Our vulnerability test results identified 47 “high-risk,” commonly-known security
          vulnerabilities among the three database systems. Each system had at least 13


                                           4

                 “high-risk” vulnerabilities. Some of the identified vulnerabilities had the
                 potential to affect the availability and integrity of the system’s financial data.
                 Management could have identified all of the noted vulnerabilities had OCFO’s
                 MOU process specified the frequency of vulnerability testing and the offices
                 implemented a routine vulnerability testing process, as required by EPA policy.
                 In addition, NIST Special Publication 800-42, Guideline on Network Security
                 Testing, recommends that system owners conduct vulnerability testing at least
                 quarterly to identify and correct vulnerabilities before they are exploited. NIST
                 notes that organizations with an active, priority-driven security-testing program
                 are in a much better position to make prudent investments to enhance the security
                 posture of their systems.

                 Since IFMS relies heavily on these database systems as the primary source for
                 financial data, vulnerabilities in these systems could allow manipulated data to
                 transfer between systems without notice. Consequently, users of IFMS data could
                 potentially make decisions based on inaccurate data.

                 We provided the program offices with copies of our vulnerability test results, and
                 the offices indicated they are taking action to remediate the weaknesses.
                 Appendix A contains a high-level summary of the specific technical weaknesses
                 found in each application.

Improvements Needed in Reporting Status of Critical System Patches
                 OCFO lacks sufficient information to determine whether system owners for
                 systems that share data implement critical system patches. Critical system
                 patches are manufacturer updates to correct significant security vulnerabilities and
                 include other fixes that are prerequisites for the security fixes included in the
                 Critical Patch Update. EPA communicates critical system patches using a high-
                 level alert issued by the Computer Security Incident Response Capability
                 (CSIRC).1 The CSIRC Centralized Reporting Guidance requires the primary
                 Information Security Officer (ISO) for each program and regional office to report
                 status of implementation in accordance with the alert direction. We evaluated
                 whether the applicable program offices adequately reported the implementation
                 status for one high-level alert that affected the three reviewed systems sharing
                 data with IFMS. We found that the primary ISO for the program office
                 responsible for the IRMS system (Office of Research and Development [ORD])
                 did not report the status for implementing the critical patch to CSIRC or to
                 OCFO. Although ORD officials did not report the patch status to CSIRC, the
                 office indicated that the patch was applied within the specified time period. This
                 occurred, in part, because OCFO management had not implemented processes to
                 (1) inform them when systems that share data requires a critical system patch, and

1
  OEI established CSIRC under the Office of Technology Operations and Planning (OTOP) to serve as the Agency’s
central system for receiving notifications regarding critical security updates for EPA’s information resources.
CSIRC is also responsible for notifying system owners when there is a major security update available for their
respective applications and tracking the system owners’ progress in implementing the system update.


                                                      5

          (2) check whether all the systems with which IFMS shares data implemented
          critical patches. OCFO needs these processes and information to maintain the
          security and integrity of data shared with IFMS. Without this information, OCFO
          cannot assess the impact of security threats to IFMS or weaknesses in database
          systems that could affect the quality of data used for financial management and
          decisionmaking.

          We also determined that the CSIRC could improve its processes for collecting and
          sharing information regarding the implementation of critical system patches. We
          reviewed the CSIRC status report regarding each office’s implementation of the
          reviewed high-level alert. We found that 30 percent (7 of 23) of EPA offices
          provided a complete response to the alert. A complete response indicated that the
          office took the advised action or the action was not applicable. CSIRC officials
          indicated that they follow up on incomplete responses with phone calls and
          emails. However, CSIRC did not document these followup measures in its
          procedure manual. Nonetheless, at the time of our field work, 4 months had
          elapsed since the CSIRC issued the alert and many offices had not provided a
          complete response. In addition, CSIRC does not maintain an inventory of
          systems in order to determine which offices a particular critical system patch
          impacts. Also, CSIRC does not share the status report regarding critical system
          patches with program offices to help them identify and mitigate unresolved
          security vulnerabilities in systems with which they share data. Sharing the status
          of implemented critical system patches would (1) provide ISOs with a tool to
          more proactively manage the security of their database systems, and (2) allow the
          CSIRC to focus its limited resources on analyzing emerging security threats.
          Because of these weaknesses, EPA’s CSIRC lacks the capability to assess the
          potential impact that unimplemented critical patches have on the Agency’s
          network resources.

Database Administrator Accounts and Privileges Not Managed
Properly
          System owners do not adequately control users’ access to and use of database
          administrator accounts and privileges, as required by EPA policy 2195.1A4,
          Agency’s Network Security Policy. In particular, the policy requires passwords
          and user login IDs to be unique and not shared. The policy also requires system
          authorizations to be restricted to the minimum level of access necessary for a
          person to do their job. Our testing found instances where:

              •	 Multiple people were sharing database administrator account user login
                 IDs and passwords. The database administrator account privileges
                 provide complete and unrestricted access to all data in the database.
                 When user login IDs and passwords are shared, EPA loses the ability to
                 hold users accountable for their actions within the system.




                                          6

            •	 Users could excessively access sensitive database components or execute
               high-level commands. A database component or “object” could be the
               database table or information stored in the database table. A high-level
               command or “privilege” allows the user to create or manipulate objects,
               such as data tables and/or reassign system privileges to other personnel
               without authorization.

        Properly controlling/administering these features is important because they allow
        management to (1) hold users that make inappropriate system changes
        accountable, (2) limit system privileges of each user to only those the user needs
        to perform their job, and (3) control unauthorized reassignment of system
        privileges to other personnel.

        These weaknesses exist, in part, because the OCFO’s MOU process does not
        specify the standards for monitoring the access and use of high-level database
        accounts. In addition, the system owners did not implement effective
        management control processes to ensure that security personnel comply with EPA
        security policy. Furthermore, management had not implemented processes to
        review access to and use of database administrator accounts and privileges. As a
        result, offices granted many of the database security privileges in a way that
        allowed users to re-assign their system access to other users without the
        knowledge of the office. We provided the respective program offices with copies
        of our test results, and the offices indicated that they are taking action to
        remediate the weaknesses. Appendix A contains a high-level summary of the
        specific technical weaknesses found in each application.

Recommendations
               We recommend that the Office of the Chief Financial Officer, Information
               Security Officer:

               1. 	 Update the MOU process to include formal security Standards that
                    require program and regional offices to actively monitor the security
                    status of systems that share data with IFMS. These standards should
                    require all system owners to:

                   a. 	 Perform network vulnerability testing at least quarterly in
                        accordance with NIST 800-42, Guideline on Network Security
                        Testing, and remediate identified vulnerabilities in a timely
                        manner.

                   b. 	Monitor the use of and access to high-level system functions (such
                       as Accountability, Least Privilege, Separation of Duties, etc.) at
                       least monthly to ensure adequate controls are applied and effective.




                                         7

                    c. 	Certify that the program/regional office has put in place oversight
                        processes to ensure these information security standards are met.

                2. 	 Request from OEI access to information regarding the implementation
                     status of high-risk CSIRC critical system patches for systems that
                     share data with IFMS.

                3. 	 Develop and implement formal procedures to ensure all OCFO system
                     owners timely and accurately report progress for implementing
                     Computer Security Incident Response Capability critical system
                     patches.

         We recommend the Director of Office of Technology Operations and Planning within
         the Office of Environmental Information:

                4. 	 Strengthen, formalize, and evaluate the effectiveness of the followup
                     procedures for obtaining complete responses from program and
                     regional offices regarding high-level critical system patch alerts.

                5. 	 Develop and implement a formal process to share EPA-wide status
                     reports with ISOs regarding implementation of CSIRC critical system
                     patches.

         We recommend the system owners for the (1) Budget Automated System (OCFO
         System), (2) Financial Data Warehouse (OCFO System), and (3) Integrated
         Resources Management System (ORD System):

                6. 	 Correct all identified system weaknesses disclosed in Appendix A.

                7. 	 Develop a Plan of Action and Milestones in the Agency’s security
                     weakness tracking system (ASSERT database) for all uncorrected
                     deficiencies disclosed in Appendix A.

Agency Response and OIG Comments
         ORD concurred with the report findings and recommendations. However, OCFO
         officials did not agree with the report recommendations, citing that its current
         MOU process provided the appropriate level of oversight. OEI officials also did
         not agree with the report’s recommendations. OEI indicated the office has a
         process in place for tracking responses to high-level critical system patch alerts.
         In addition, OEI indicated that the office’s current status report provided to
         management and ISOs for the purpose of their distributed oversight is sufficient.

         We met with Agency officials from all three offices subsequent to receiving their
         responses to the draft report. Based on our discussions, OCFO and OEI officials
         agreed that the offices could take more steps to improve the current processes and


                                          8

strengthen database security. As such, OCFO agreed to modify its MOU process
to provide more specificity to system owners with systems that share data with
IFMS. OCFO also agreed to take steps to ensure all OCFO system owners timely
and accurately report progress for implementing critical system patches. OEI
officials agreed to formalize their CSIRC followup procedures and make critical
patch reports more available. Where appropriate, we modified the report to
address the offices’ concerns and our discussions.

OEI and ORD provided a corrective action plan to address the report’s findings
and recommendations. OCFO updated its response to the report and indicated
that the office would provide a corrective action plan to address the remaining
open recommendations. Complete responses are provided in Appendices B, C,
and D.




                                9

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                        POTENTIAL MONETARY
                                                         RECOMMENDATIONS                                                                 BENEFITS (in $000s)

    Rec.    Page                                                                                                         Planned        Claimed    Agreed To
    No.      No.                          Subject                           Status1         Action Official           Completion Date   Amount      Amount

     1        7     Update the MOU process to include formal security         O       Information Security Officer,
                    Standards that require program and regional                       Office of the Chief Financial
                    offices to actively monitor the security status of                            Officer
                    systems that share data with IFMS. These
                    standards should require all system owners to:
                   a. Perform network vulnerability testing at least
                      quarterly in accordance with NIST 800-42,
                      Guideline on Network Security Testing, and
                      remediate identified vulnerabilities in a timely
                      manner.
                   b. Monitor the use of and access to high-level
                      system functions (such as Accountability, Least
                      Privilege, Separation of Duties, etc.) at least
                      monthly to ensure adequate controls are applied
                      and effective.
                   c. Certify that the program/regional office has put
                      in place oversight processes to ensure these
                      information security standards are met.

     2        8     Request from OEI access to information regarding          O       Information Security Officer,
                    the implementation status of high-risk CSIRC                      Office of the Chief Financial
                    critical system patches for systems that share data                           Officer
                    with IFMS.

     3        8     Develop and implement procedures to ensure all            O       Information Security Officer,
                    OCFO system ownes timely and accurately report                    Office of the Chief Financial
                    progress for implementing CSIRC critical system                               Officer
                    patches.

     4        8     Strengthen, formalize, and evaluate the                   C           Director, Office of           08/01/2007
                    effectiveness of the followup procedures for                      Technology Operations and
                    obtaining complete responses from program and                             Planning
                    regional offices regarding high-level critical system
                    patch alerts.

     5        8     Develop and implement a process to share EPA-             C           Director, Office of           08/01/2007
                    wide status reports with Information Security                     Technology Operations and
                    Officers regarding implementation of CSIRC critical                       Planning
                    system patches.

     6        8     Correct all identified system weaknesses disclosed        C           BAS System Owner              BAS-05/2006
                    in Appendix A.                                                       FDW System Owner               FDW-08/2006
                                                                                         IRMS System Owner             IRMS-04/ 2006

     7        8     Develop a Plan of Action and Milestones in the            C           BAS System Owner               BAS – N/A
                    Agency’s security weakness tracking system                           FDW System Owner               FDW – N/A
                    (ASSERT database) for all uncorrected                                IRMS System Owner              IRMS – N/A
                    deficiencies disclosed in Appendix A.


1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  10

                                                                                                    Appendix A

       High-Level Summary of Specific Technical
     Weaknesses by EPA Program Office and System2


             This Appendix is for restricted distribution. This Appendix contains
             material that is confidential business information, proprietary
             information, or source selection information. Unauthorized
             disclosure of this Appendix or any of its content may violate the
             provisions of the Trade Secrets Act, 18 U.S.C. 1905; the Procurement
             Integrity Act, 41 U.S.C. 423; the Freedom of Information Act, 5
             U.S.C. 552; the Privacy Act, 5 U.S.C. 552a; and/or the Federal
             Acquisition Regulation, Section 3.104 (48 CFR 3.104). Due to the
             sensitive nature of these findings, the Office of Inspector General
             removed this Appendix from the public version of the report.




2
  A detailed listing of technical weaknesses was provided to the respective Program Office officials. The detailed
listing identified the specific weaknesses, to include background information on the weaknesses and possible
methods the system owner could use to correct the weaknesses.


                                                         11
                                                                                  Appendix B

          Non-Sensitive Portion of OCFO’s and OEI’s 

          Combined Response to Draft Audit Report 

                                       February 23, 2007


MEMORANDUM


SUBJECT:      Office of the Chief Financial Officer (OCFO) Response to the Office of Inspector
              General‘s (OIG) Draft Audit Report – EPA Needs to Strengthen Financial
              Database Security Oversight and Monitor Compliance, Dated January 11, 2007,
              Assignment No. 2006-000442

FROM:         Krista Mainess, Director
              Office of Program Management
              Office of the Chief Financial Officer

TO:           Rudy Brevard
              Acting Director, Business Systems Audits

        We appreciate the opportunity to provide written comments on the subject draft audit
report. The OCFO remains firmly committed to securing its systems and data in a cost effective
manner and in accordance with Federal guidance, EPA policy, and best practices.

       If you or your staff have any questions or need additional information concerning our
response to the subject draft report, contact Bob Shields, IT Team Leader, at 202-564-0123.


cc: 	   Lyons Gray, OCFO
        Maryann Froehlich, OCFO
        Lorna McAllister, OCFO
        David Bloom, OCFO
        Mitch Gray, OCFO
        Myra Galbreath, OEI
        Marian Cody, OEI
        Pat Hill, OIG




                                               12

Below you will find general comments on the entire report as well as specific comments related
to each recommendation.

OCFO’s General Comment:
Much of the audit text appears to be based on the assumption that IFMS “shares data” with
FDW, BAS, and IRMS, but the report provides no details on what this means.

Here are details on each system’s relationship to IFMS. The FDW copies data from IFMS for
reporting. IFMS receives no data from the FDW. BAS has no connection to send or receive data
with IFMS. IRMS transmits commitment and reprogramming documents to IFMS. Those
documents are subject to all IFMS edits before they are processed so there are already safeguards
built into the process.

Transactions entered in IFMS are monitored by a particular user community. For example, if
IRMS transmitted invalid commitments to IFMS that still passed the accounting string and funds
availability edits, they would be discovered by ORD (the owner of IRMS) and corrected. The
OCFO, Office of Budget in their annual closeout memo requires allowance holders to monitor
their available funds. They issued their 2007 closeout memo on December 18, 2006.

Another example of a transaction control on IFMS data is the annual year-end certification of
unliquidated obligations. Allowance holders are required to certify to OFM that their
unliquidated obligation balances in IFMS are correct. This requirement is documented in the
annual financial statement audit commitment memorandum signed by the Chief Financial
Officer and the Inspector General. Details on the process are included in the OFM year end
closing memo.

Finally, many of the recommendations directed toward the OCFO ISO are the responsibility of
the individual system owners, according to EPA’s Information Security Manual 2195A.

OARM’s General Comment:
SLATE does not receive nor send data to IFMS.

OEI’s General Comment:
The procedures requested for developing and implementing recommendation #3 were in place
prior to this audit finding and have been previously provided.

In addition, the following inaccuracies in the draft audit are noted. One area of concern is the
apparent confusion regarding CSIRC’s roles and responsibilities. CSIRC maintains an inventory
of the Agency’s technologies so that they can notify the Information Security Officers to upgrade
or patch their systems. CSIRC is not responsible for determining which informational systems
are critical to the Agency. However, CSIRC does determine which patch is critical.




                                               13

OIG recommendations and corresponding OCFO/OEI responses are as follows: 


OIG Recommendation #1: 

The Information Security Officer (ISO) within the Office of the Chief Financial Officer (OCFO) 

update the Memorandum of Agreement process to include formal security standards that require 

the program/regional offices to actively monitor the security status of systems that share data 

with IFMS. These standards should require all system owners to: 


       a. Perform network vulnerability testing at least quarterly in accordance with
       NIST 800-42, Guideline on Network Security Testing, and remediate identified
       vulnerabilities in a timely manner.

       b. Monitor the use of and access to high-level system functions (such as
       Accountability, Least Privilege, Separation of Duties, etc.) at least monthly to
       ensure adequate controls are applied and effective.

       c. Certify that the program/regional office has put in place oversight processes to
       ensure these information security standards are met.

CFO Response to Recommendation #1:
The OCFO agrees with this recommendation.


OIG Recommendation #2:
The ISO within OCFO request from OEI access to information regarding the implementation
status of high risk CSIRC critical system patches for systems that share data with IFMS.

OCFO Response to Recommendation #2:
The OCFO agrees with this recommendation.


OIG Recommendation #3:
The ISO within OCFO send out a notification to all OCFO system owners reminding them of the
criticality of timely and accurately reporting the status of implementing CSIRC critical system
patches.

OCFO Response to Recommendation #3:
The OCFO agrees with this recommendation.


OEI Recommendation #4:
Develop and implement follow-up procedures to obtain complete responses from program and
regional offices regarding high-level critical system patch alerts.

OEI Response to Recommendation #4:
OEI does not concur with this recommendation.



                                                14

OEI/OTOP has a process in place for tracking responses to high-level critical system patch
alerts, which includes following up with Information Security Officers (ISOs). If the system is a
Microsoft based platform, CSIRC uses PatchLink for progress reports and contacts ISOs
regarding any delay in patch implementation. In addition, CSIRC acts as a liaison between
Network Infrastructure Services (NIS http://lansys.epa.gov/ )ISOs and PatchLink
Administrators regarding any problems with patch deployment. If the system is not a Microsoft
based platform, the ISOs are responsible for reporting the patch status to CSIRC. CSIRC
follows up according to the time constraints provided in the CSIRC-Alert. For a critical or high-
level patch, response is required within two business days. If a response is not received, CSIRC
contacts all ISOs with applicable systems in their area for patch status information. It should be
noted that the responsibility for the patching of systems does not fall under CSIRC. It is the
responsibility of each region and program office to act on CSIRC-Alerts and patch their systems
accordingly.

In addition, CSIRC has provided information to NCC Security regarding the potential impact
that unimplemented critical patches have on the Agency’s network resources in emails, Security
Incident Request (SIR) tickets, and Quarterly Reports. CSIRC does not implement or govern
patch deployment, nor does it have the authorization to enforce.


OIG Recommendation #5:
Develop and implement a process to share EPA-wide status reports with Information Security
Officers regarding implementation of CSIRC critical system patches.

OEI Response to Recommendation #5:
OEI does not concur with this recommendation.

Traditionally, the Agency has maintained that the specific vulnerabilities and security postures of
the regions and program offices will not be shared EPA-wide. However, we currently provide
reporting status to management and ISOs for the purpose of their distributed oversight. OTOP
will continually work to create a more streamlined reporting process.




                                                15

                                                                      Appendix C


OCFO’s Response to Recommendations Associated
  with Sensitive Technical Control Weaknesses
            Disclosed in Appendix A


    This Appendix is for restricted distribution. This Appendix contains
    material that is confidential business information, proprietary
    information, or source selection information. Unauthorized
    disclosure of this Appendix or any of its content may violate the
    provisions of the Trade Secrets Act, 18 U.S.C. 1905; the Procurement
    Integrity Act, 41 U.S.C. 423; the Freedom of Information Act, 5
    U.S.C. 552; the Privacy Act, 5 U.S.C. 552a; and/or the Federal
    Acquisition Regulation, Section 3.104 (48 CFR 3.104). Due to the
    sensitive nature of these findings, the Office of Inspector General
    removed this Appendix from the public version of the report.




                                    16

                                                                      Appendix D


ORD’s Response to Recommendations Associated
  with Sensitive Technical Control Weaknesses
            Disclosed in Appendix A


    This Appendix is for restricted distribution. This Appendix contains
    material that is confidential business information, proprietary
    information, or source selection information. Unauthorized
    disclosure of this Appendix or any of its content may violate the
    provisions of the Trade Secrets Act, 18 U.S.C. 1905; the Procurement
    Integrity Act, 41 U.S.C. 423; the Freedom of Information Act, 5
    U.S.C. 552; the Privacy Act, 5 U.S.C. 552a; and/or the Federal
    Acquisition Regulation, Section 3.104 (48 CFR 3.104). Due to the
    sensitive nature of these findings, the Office of Inspector General
    removed this Appendix from the public version of the report.




                                    17

                                                                            Appendix E


                                    Distribution

Office of the Administrator
Chief Financial Officer (CFO)
Assistant Administrator for Environmental Information
Assistant Administrator for Research and Development
Agency Followup Coordinator
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Office of Research and Development
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Office of General Counsel
Acting Inspector General




                                             18

